July 23, 1999


YVONNE D. MAGUIRE
VICE PRESIDENT
HUMAN RESOURCES

SUBJECT:        Procurement Training for Contract Employees Assigned
                to Facilities Project Manager Positions
                (Letter Advisory LA-FA-99-002)

Attachment 1 is the subject advisory previously issued to you on January 29,
1999. Attachment 2 contains your April 19, 1999 response, which we
considered responsive to the issues raised. We are reissuing the two
attachments as one document, (LA-FA-99-002, dated July 23, 1999) for audit
tracking purposes only. No action is required on your part.

If you have any questions or need additional information, please contact
             , or me at (703) 248-2300.



  //Signed//
Sylvia L. Owens
Assistant Inspector General
 for Revenue Cost/Containment

Attachments

cc: 	 Alan B. Kiel
      John R. Gunnels
2
3
4
